No. 19-974
IN THE

~upreme <!Court of tbe mlniteb ~tates
WILLIAM T. SCHMITT, CHAD THOMPSON, AND
DEBBIE BLEWITT,

Petitioners,

V.

FRANK LAROSE,
OHIO SECRETARY OF STATE,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief for

Amici Curiae Initiative and Referendum Institute and Center for Competitive
Democracy in Support of Petitioners in Schmitt v. LaRose, No. 19-97 4, complies with
the word limitations, as it contains 3, 71 7 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: March 5, 2020

Lawrence D. Rosenberg

